             United States Department of the Interior
                             Office of Inspector General
                                  Washington, D.C. 20240



                                                                      December 23, 2003

Memorandum

To:        Director, U.S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject: Management Issues Identified During the Audit of the U.S. Fish and Wildlife
         Service’s Fiscal Year 2003 Financial Statements
         (Report No. C-IN-FWS-0023-2004)

        We contracted with KPMG LLP (KPMG), an independent certified public
accounting firm, to audit the U.S. Fish and Wildlife Service’s (FWS) financial statements
as of September 30, 2003 and for the year then ended. In conjunction with its audit,
KPMG noted certain matters involving internal control and other operational matters that
should be brought to management’s attention. These matters, which are discussed in the
attached letter, are in addition to those reported in KPMG’s audit report on FWS’s
financial statements (Report No. C-IN-FWS-0078-2003) and do not constitute reportable
conditions as defined by the American Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

        The legislation, as amended, creating the Office of Inspector General, (5 U.S.C.A.
App. 3) requires semiannual reporting to Congress on all audit reports issued, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report.

Attachment

cc:     Assistant Secretary for Fish, Wildlife and Parks
        Chief Financial Officer, U.S. Fish and Wildlife Service
        Director, Office of Financial Management
        Audit Liaison Officer, Fish, Wildlife and Parks
        Audit Liaison Officer, U.S. Fish and Wildlife Service
        Focus Leader for Management Control and Audit Followup,
        Office of Financial Management
               Suite 2700
               707 Seventeenth Street
               Denver, CO 80202




October 31, 2003


The Director of United States Fish and Wildlife Service and the
 Inspector General of the U.S. Department of the Interior:

We have audited the financial statements of the U.S. Fish and Wildlife Service (the Service) for the year
ended September 30, 2003, and have issued our report thereon dated October 31, 2003. In planning and
performing our audit of the financial statements of the Service, we considered internal control in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements.
An audit does not include examining the effectiveness of internal control and does not provide assurance
on internal control. We have not considered internal control since the date of our report.

Our consideration of internal control over financial reporting identified the following reportable conditions:

Reportable Condition That is Considered to be a Material Weakness
•     Processes, controls, and financial reporting related to property, plant, and equipment

Other Reportable Conditions
•     Controls and processes related to financial reporting
•     Controls, processes, and allocations in the statement of net cost
•     Application and general controls over financial management systems
•     Reconciling transactions within the Service as well as with other Department of the Interior
      components
•     Controls, processes, and financial reporting related to capital equipment

During our audit we noted other matters involving internal control and other operational matters that are
presented for your consideration. These comments and recommendations, all of which have been discussed
with the appropriate members of management, are intended to improve internal control or result in other
operating efficiencies and are summarized as follows:

Financial Management Structure, Policies, and Oversight
The Service is a complex and decentralized organization in which many parties participate in accounting
and financial reporting. The Division of Financial Management, under the Assistant Director for Business
Management, is responsible for preparing the annual accountability report, which presents the financial
statements, management’s discussion and analysis, required supplementary stewardship information, and
required supplementary information.




                   KPMG, LLP. KPMG, LLP a U.S. limited liability partnership, is
                   a member of KPMG International, a Swiss association.=
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 2


During our audit, we noted that the financial management environment of the Service is not operating as
effectively and efficiently as necessary to fully support the Service’s mission. Also, the Chief Financial
Officer (CFO) and the Division of Financial Management (DOFM) have some difficulty in obtaining
certain information necessary to prepare accurate and complete financial statements in a timely manner. In
addition, there is a misunderstanding within the Service as to who is ultimately responsible for financial
reporting. Specifically, we noted the following:

•     Leadership structure – The CFO and his staff appear to have some difficulty in providing an
      effective level of oversight in planning, prioritizing, and executing certain financial management
      practices within the Service.
•     Service policies – Service policies may not be sufficient to allow regions and programs to execute
      accounting transactions and provide necessary information to the DOFM for financial reporting.
•     Accounting infrastructure – Certain critical accounting functions are being performed outside the
      direct oversight and direct knowledge of the CFO, including certain environmental liability analysis,
      statement of net cost allocations, processing of receipts and payments, and tracking and recording of
      real property and capital equipment.
•     Financial management oversight in field offices – Field accounting personnel report to the regional
      directors and often perform a variety of additional non-accounting duties creating priority conflicts.

Given the decentralized control environment that the Service has adopted to support its mission and
objectives, Service senior management must ensure that all personnel, including program personnel, who
perform accounting functions fully comply with OMB Circular No. A-123, Management Accountability
and Control. OMB Circular A-123 states that “management controls are the organization, policies, and
procedures used by agencies to reasonably ensure that…reliable and timely information is obtained,
maintained, reported and used for decision making.” Furthermore, “Federal managers must take systematic
and proactive measures to develop and implement appropriate, cost-effective management controls.”

The Service does not have adequate communication amongst regions and programs and the CFO and
DOFM regarding the roles, responsibilities, and authority for accounting and financial reporting. Also,
Service policies may not be sufficient to allow regions and programs to execute accounting transactions
and provide necessary information to the DOFM for financial reporting. As a result, the CFO does not have
the authority to compel program personnel to comply with financial management practices, and provide
financial information needed to prepare financial statements in a timely, accurate, and complete manner.
Consequently, instructions and prioritization of responsibilities must be issued by the Director’s office.

Recommendations
The Service should reevaluate its accounting and financial reporting resources and organizational structure
to ensure that information is available to prepare accurate and complete financial statements in a timely
manner and that personnel are accountable for financial reporting. This evaluation should do the following:

•     Clearly define the role, responsibility, and authority of the DOFM, including the CFO, with regard to
      accounting and financial reporting.
•     Ensure accountability within the Service for accounting and financial reporting.
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 3


•     Update and communicate accounting and financial reporting policies to provide sufficient
      information to regions and programs as to responsibilities and timelines for accounting and financial
      reporting that allow for appropriate review by the CFO and DOFM.
•     Provide training to program officials regarding accounting and financial reporting.
•     Improve and enforce controls to ensure that accounting information processed by the regions and
      field offices is complete, accurate, timely and in accordance with the Service’s policy.
•     Establish a prioritization management process within the Service for decision-making and resource
      allocation purposes. This prioritization management process would assist the Director, Deputy
      Director, Regional Directors, and Assistant Directors in determining, assessing, and monitoring the
      implementation of the Director’s mission goals and objectives in a more efficient and effective
      manner.

Management Response
Partially agree. The Service continues to improve financial management practices each year. In fact, within
the Department, the Service is a leader in the daily execution of many financial management
responsibilities. However, the CFO and senior management officials realize that financial management
improvements are an evolving process with incremental gains each year. This evolving process is not just
within the Fish and Wildlife Service or the Department of the Interior, it is government-wide. We feel
within the Service that these incremental improvements will eventually lead to a cohesive financial
management system, under the umbrella of the Department of the Interior. As KPMG has indicated, the
Service is a highly complex organization with more than 700 field organizations and eight Regional
Offices. In addition, the average staff size of Service field entities is approximately six employees. In
almost all cases, these employees do not have a financial background. They were hired based on their
education and experience in natural resource programs. Therefore, financial management and internal
control activities are only one of many priorities that field managers must routinely address.

In mid-fiscal year 2003 (this year’s audit), as a part of the Service’s ongoing efforts to improve financial
management activities and communications, the position of Regional Chief Financial Officer (RCFO) was
established for each Regional Office. As a result, the Service’s Regional components have become
accountable and increasingly aware of the critical nature of financial management in their daily routines
and many organizations are now balancing the financial management needs of the Service with other
pressing mission critical priorities. Again, it should be noted that this “balancing” is an evolutionary
process, with the expectation of incremental progress. Since the RCFOs have only been in existence for
less than a year, Regional field entities are realizing that their RCFOs are becoming the focal point for
financial matters within each Region. The RCFOs report directly to the Regional Director’s Office through
their Deputy Regional Director. This reporting relationship also allows for improved communications and
sharing of critical information between the Director, Deputy Director, and the Service’s Chief Financial
Officer on financial matters since the Director has line authority over the Regional Directors and the
Service’s Chief Financial Officer.
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 4


In fiscal year 2004, as a result of the lessons learned from the preceding three years of KPMG audits, the
Service is leading many financial management improvement actions in the areas of Property, Plant, and
Equipment, EDP Control improvements, eliminations, and FFMIA system requirements and accounting
standards. These critical improvement actions will result in a reduced number of audit findings and allow
the Service managers to focus attention on mission-related functions rather than taking corrective actions
as a result of audit findings.

Grants
Code of Federal Regulations (43 CFR), Uniform Administrative Requirements for Grants and Cooperative
Agreements to State and Local Governments, Part 12.81(b) requires grantees to submit Financial Status
Reports, including the Standard Form (SF) 269 to report the status of funds for all nonconstruction grants
and for construction grants. The Code states that the Federal agency may prescribe the frequency of the
report for each project or program; however, the report will not be required more frequently than quarterly.
If the Federal agency does not specify the frequency of the report, it should be submitted annually. A final
report is required upon expiration or termination of grant support.

The Code also states that when reports are required on a quarterly or semiannual basis, they will be due 30
days after the reporting period. When required on an annual basis, they will be due 90 days after the grant
year. Final reports will be due 90 days after the expiration or termination of the grant.

In fiscal year 2003, the Service issued questions and answers regarding reports that stated that:

         “The Regional Director will not approve any subsequent grants or amendments
         submitted by the grantee for the grant program in which the report(s) is overdue until the
         delinquent report(s) has been received or an extension request has been approved. The
         effective date for such grants and amendments held pending compliance with reporting
         requirements will be the date the delinquent report(s) is received by the Division or the
         date an extension request is approved. Incomplete or inaccurate reports will not be
         accepted as being compliant with reporting requirements. When imposed, this penalty
         shall become effective on the day after the original due date.

         The Regional Director shall stop all payments to the grantee for the grant program in
         which the report(s) is overdue until the delinquent report(s) has been received or
         extension request has been approved. In addition, the Regional Director will not approve
         any subsequent grants or amendments submitted by the grantee for the grant program in
         which the report(s) is overdue until the delinquent report(s) has been received by the
         Division or the date an extension request is approved. The effective date for such grants
         and amendments held pending compliance with reporting requirements will be the date
         the delinquent report(s) is received by the Division or the date an extension request is
         approved. Incomplete or inaccurate reports will not be accepted as being compliant with
         reporting requirements. When imposed, this penalty shall become effective on day 181
         after the 12-month grant agreement anniversary date or the grant agreement ending
         date.”
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 5


During our test work, we noted that the Service did not receive SF-269 Financial Status Reports in a timely
manner. We noted five instances in our sample of 30 items in which the states did not request filing
extensions and submitted the SF-269s past the 90-day timeframe. The Service continued to make payments
on these grants without the required SF-269. We also noted one instance in which the Service could not
locate the SF-269 and had to request the document from the state.

While the Division of Federal Aid has made efforts to request reports from states after they become
delinquent, it has not performed sufficient monitoring to ensure states submit required SF-269 Financial
Status Reports in a timely manner. SF-269 Financial Status Reports are used to properly record grant
expenses in the Federal Aid Information Management System (FAIMS) and to help ensure expenses are
recorded in the proper accounting period. Receipt of SF-269s also triggers deobligation of funds at the
close of grants. Failure to receive reports in a timely manner could result in a misstatement of the Service’s
financial statements.

Recommendation
The Division of Federal Aid should implement its policy regarding financial status reporting requirements
related to grants to ensure that SF-269 reports are obtained and entered into FAIMS in a timely manner.

Management Response
Agree. The Federal Assistance Program has made significant progress in securing timely financial status
reports from grantees. In May 2003, the Director issued guidance to State Fish and Wildlife agencies to
inform them of their reporting requirements and to outline actions the Service may take to resolve
delinquent reports. The Service is working with the States in implementing this new policy and is
developing new tools that may be used by the Service and grantees to improve performance and results. In
July 2003, the Service introduced a new monitoring tool in FAIMS that will tell grantees in advance when
reports are due. This report is available on the Internet and identifies a due date for all reports. Several
sections of this report flag reports due in 30 days or less; due in 31 to 60 days; due in 61 to 90 days; and
due in 91 days or more. In the past, FAIMS reports only identified delinquent reports which were past due.
This new tool, used in combination with other monitoring tools that already exist in FAIMS, enhances the
capability of the Service to monitor the status of grant reports on a regular basis and to work with
individual grantees prior to reporting deadlines to ensure their compliance.

Investment in Non-Federal Physical Property
Region 4 reported obligations as opposed to expenditures for investment in nonfederal physical property.
Nonfederal physical property results from grants provided for properties financed by the Federal
government, but owned by the state and local governments. Region four had several persons involved in
reporting stewardship information and in response to auditor inquiries had difficulty determining the
source of figures reported in the annual report. It does not appear that the instructions from the Washington
office were clearly understood and implemented. We did not note this issue in other regions.
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 6


Recommendation
The Division of Federal Aid should ensure instructions for reporting stewardship investments are clearly
communicated and implemented. Specifically, Region 4 should ensure these instructions are accurately
implemented and that appropriate personnel are in place to report such information to the Washington
office.

Management Response
Agree. The Division of Federal aid has followed-up and corrected the finding. The Washington Office will
provide updated guidance to all regions. Additional training and monitoring will be provided for Region 4.

Credit Card Transactions
The Service has provided government-wide purchasing cards in order to streamline acquisition and
payment procedures and reduce the administrative burden associated with traditional and emergency
purchasing of supplies and services. In conjunction with the issuance of these cards, the Service published
guidance and instructions on the card’s utilization through 301 FW6: Purchase Cards. This policy sets forth
restrictions on the use of the cards as well as certain internal control procedures such as timely and
complete reconciliation of billing statements by cardholders and approving officials or supervisors. This
prescribed reconciliation process is as follows:

•     At the end of each monthly billing cycle, the cardholder is responsible for reconciling the
      information on his/her statement of account. The cardholder should:
      –     Enter the appropriate accounting classification in the accounting code block.
      –     Provide a description for each purchase.
      –     Sign the statement, indicate the date the statement was received, and attach all supporting
            documentation.
      –     Complete Form 3-181 and forward the package to the approving official within three working
            days of receipt.
•     After ensuring that cost structures are identified for all items acquired, the approving official will
      review, certify, and sign the reverse side of each cardholder’s monthly statement of account.
We tested a sample of 45 cardholders for completion of timely reconciliations of monthly credit card
statements as well as whether or not receipts supported individual purchases for Service business. Our test
work revealed the following exceptions:

•     Five instances in which the credit card statements could not be provided by the cardholder
•     Seven instances in which the credit card statements were not reviewed and signed by the cardholder
•     Five instances in which the credit card statements were not reviewed and signed by the supervisor
•     Seventeen instances in which the credit card statement reviews were not performed timely within
      five days of receipt of the statement or not dated
•     Two instances in which receipts were missing for purchases
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 7


•     One instance in which the receipt amount did not agree to the credit card statement
However, we noted no purchases that were unallowable or for non-Service business.

Purchasing cards have fewer inherent controls than normal purchasing mechanisms, and the completion of
reviews is in part dependent on the cardholder. Failure to comply with credit card policies can create an
environment left open for abuse or unauthorized use of the Service’s funds.

The Service has an audit function in which cardholders are randomly selected for detailed reviews on a
monthly basis. However, we noted inconsistent audit guidelines. For example:

•     Four regions randomly select cardholders, while one region reviews 100% of cardholders each
      month and one other region reviews only exception reports from the EAGLS system.
•     Three regions randomly select 3% of cardholders for audit, one region selects 5%, and another
      region selects 9%.
•     All regions review delinquency reports, ATM transactions, and airline and rental car charges.
•     Three regions review purchases over $2,500 for those cardholders with warrant authority.

Recommendations
The Service should:

•     Continue to communicate with cardholders and approving officials as to their responsibilities under
      the purchasing card program, including reconciliation requirements;
•     Issue violation warnings to cardholders and approving officials for exceptions identified in this and
      other audits and use administrative procedures to enforce the credit card policies; and,
•     Consider developing consistent audit guidelines for use by all regions.

Management Response
Partially agree. To mitigate inherent risks in the credit card program, the Service designed a series of
layered compensating controls which are in addition to those required by Departmental policies. The focus
of Service controls is to limit risks to the Government by preventing and detecting waste, fraud, and abuse,
taking appropriate actions when waste, fraud, or abuse occur and ensuring employees pay credit card bills
promptly. Ensuring compliance with Departmental policy is an objective of the Service’s control system,
but it is outweighed by the Service’s focus on results.
The Service has active coordinators and managers overseeing the program, and providing support to
cardholders and their reviewing officials. Initiatives used to support Service cardholders and
reviewing/approving officials include:
•     Requirement for the issuance of purchase orders for all transactions exceeding the micro-purchase
      threshold
•     A national website for purchase cardholders and administrative officials with Service policies and
      procedures
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 8


•     Administrative conferences conducted by Regions to address proper use of the charge card
•     Mandatory training at the National Conservation Training Center for contracting officers on
      purchase cards
•     Information and educational materials for supervisors and cardholders including brochures and a
      wallet-sized checklist of do’s and don’ts
•     Online purchase card refresher training
•     Workshops for supervisors and managers
•     E-mail announcements to administrative officials alerting them to purchase card issues

The Service will consider a more standard approach to the sampling conducted by Regions.
Acceptance Dates
The Service’s methodology for estimating general accounts payable as of September 30, 2003 is based on
data in the Federal Financial System (FFS), specifically keyed off the acceptance date or “date received.”
This date should reflect the date on which payment becomes due on goods or services received by the
Service. If the acceptance date is incorrect, the Service’s estimate for general accounts payable may be
misstated.

Our test work over 90 disbursements made in fiscal years 2001, 2002 and 2003 revealed the following:

•     Twenty instances of invoices where the acceptance date recorded on the invoice was not the date on
      which payment becomes due on goods or services received by the Service.
•     Seven instances where the date entered into FFS did not correspond to the acceptance date recorded
      on the invoice.
•     Five instances where no stamp was placed on the invoice or the stamp containing the
      “goods/services received” date was not completed.
•     One invoice where the acceptance date was a range of dates.

During our audit, the Service had not issued consistent guidance to regions and field personnel regarding
coding acceptance dates. In September 2003, the Service issued guidance on acceptance dates.

Recommendation
The Service should implement its guidance on acceptance dates to ensure consistent and accurate data is
input into FFS. The Service should also implement periodic audits of acceptance dates to support the
accounts payable estimation methodology.
The Director of United States Fish and Wildlife Service and the
  Inspector General of the U.S. Department of the Interior
October 31, 2003
Page 9


Management Response
Agree. The Division of Financial Management has prepared a desktop guide providing detailed definitions
of acceptance date and other dates to be entered into FFS for goods and services obtained by the Service.
The Service also plans to sample transactions to determine whether their acceptance dates are correct as
part of the accounts payable estimation process.
Land Records System
The Division of Realty is responsible for acquiring Service land and maintaining records, including
acquisition cost and acreage, in its Land Records System (LRS), a subsystem of the Real Property
Management Information System (RPMIS). LRS is used to generate the annual Land Report at year-end.
This report is used to adjust the land account on the balance sheet and report stewardship acreage in the
Required Supplementary Stewardship Information (RSSI) section of the Service’s annual report.
Our test work over 45 stewardship land samples revealed two instances of data entry errors in which
acreage and/or cost was not entered correctly in LRS as follows:
•     Transaction # 1013533006A, nine acres and $12,300
•     Transaction # 4013522184A, seven acres

The Service does not have adequate controls in place to ensure data entered into LRS is accurate and
complete. Specifically, management review was not in place over the LRS or the stewardship land report to
detect errors. As a result, RSSI and land may be misstated.
Recommendation
The Service should ensure adequate controls are in place to record data in LRS accurately and completely.
Management Response
Agree. The Service will review its current controls and make necessary changes to improve the quality of
data entered into LRS.
                                               *******

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore, may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the Service’s organization gained during our work to make comments
and suggestions that we hope will be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
This report is intended for the information and use of Service management, Department of the Interior’s
management, Department of the Interior’s Office of Inspector General, Office of Management and Budget,
the General Accounting Office, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.
Very truly yours,
